             Office of Inspector General




September 28, 2005

VINCENT H. DEVITO, JR.
MANAGER, CORPORATE ACCOUNTING

SUBJECT: Management Advisory – Reporting Salary Overpayments to the
         Internal Revenue Service (Report Number FT-MA-05-002)

This report presents an issue regarding the Postal Service’s compliance with Internal
Revenue Service (IRS) employment tax regulations related to salary overpayments.
We identified this issue during our annual audit of the fiscal year 2005 Postal Service
Financial Statements at the Eagan Information Technology and Accounting Service
Center (IT/ASC) (Project Number 05BM001FT001). Specifically, the Postal Service
did not report $5.5 million of salary overpayments on Forms W-2, Wage and Tax
Statements it issued to current and former employees. Additionally, the Postal Service
inappropriately corrected $2.3 million in prior years’ social security wages. As a result,
the Postal Service incorrectly reported employee income and taxes to the IRS on its
Form 941, Employer’s Quarterly Federal Tax Return.

                                                 Background

IRS employment tax regulations require every employer to deduct and withhold
appropriate taxes from the payment of wages. In addition, employers are required to
include overpayments in employees’ income for the calendar year they make the
overpayments if employees do not repay them by the end of that calendar year.
Further, the overpayment amounts are subject to withholding for federal, social security,
and Medicare taxes.

Postal Service policy states overpayments may result from errors in payroll salaries,
errors in deductions, workers’ compensation cases, and overdrawn leave.1 In calendar
year (CY) 2004, approximately 52 percent of salary overpayments resulted from
overdrawn annual and/or sick leave. In cases of overpayments, Postal Service policy is
to collect the amount of the overpayment from the employee by establishing an
accounts receivable.

1
 In general, the Postal Service advances annual leave during the first full pay period of each calendar year. This
advance leave balance reduces as the employee earns annual leave hours each pay period. Overdrawn leave
results when an employee terminates with a balance of leave used but not earned.
Reporting Salary Overpayments to the                                                                 FT-MA-05-002
 Internal Revenue Service


The Postal Service establishes accounts receivable for errors in payroll salaries and
errors in deductions at the time of discovery, but does not establish accounts receivable
for overdrawn leave until an employee separates from duty. In cases of death or
retirement due to disability, the Postal Service does not take action to collect
overpayments related to overdrawn leave.

                            Objective, Scope, and Methodology
The objective of this part of the audit was to determine whether the Postal Service
complied with IRS employment tax regulations regarding salary overpayments.
We conducted this work at the Eagan IT/ASC. The Eagan IT/ASC is one of three Postal
Service-wide accounting service centers.2 The Eagan center is responsible for
processing payroll and related functions for the entire Postal Service.

To accomplish our objective, we extracted employee accounts receivable the Postal
Service established specifically for salary overpayments3 in CY 20044 that were
outstanding at the end of the calendar year. During our audit, we reviewed pertinent
Postal Service policies and procedures and IRS employment tax regulations to
determine proper reporting methods for overpayments. In addition, we reviewed W-2
and payroll history files to determine actual Postal Service procedures for establishing
accounts receivable for salary overpayments. Further, we interviewed IRS
representatives and Postal Service management from the Eagan IT/ASC and Postal
Service Headquarters.

This report excludes Economic Value Added overpayments that occurred in pay
period 13, 2004.5 On June 18, 2004, we issued a report on the processing error that
occurred related to these overpayments.

We conducted this part of the audit from February through September 2005, in
accordance with generally accepted government auditing standards. We relied on data
from the Postal Service’s Oracle Applications accounts receivable system. We did not
test internal controls during this review. Internal controls will be tested separately as
part of our annual financial statement audit work. We discussed our observations and
conclusions with management officials and included their comments where appropriate.

                                        Prior Audit Coverage
We did not identify any prior audits or reviews related to the objective of this review.



2
  The other IT/ASCs are located in San Mateo, California, and St. Louis, Missouri.
3
  Overpayments relate to overdrawn annual and sick leave and payroll salary errors.
4
  Transactions occurring from the beginning of pay period 1 (December 13, 2003) through the end of pay period 27
(December 24, 2004).
5
  Postal Service Calendar Year 2004 Pay Schedule; May 29 through June 11, 2004.




                                                         2
Reporting Salary Overpayments to the                                                                   FT-MA-05-002
 Internal Revenue Service


                                                    Results

Reporting Salary Overpayments to the IRS

The Postal Service did not always follow IRS employment tax regulations for reporting
salary overpayments when employees did not repay the entire amount by the end of the
calendar year in which the Postal Service made the payment. This occurred because
Postal Service policy is not consistent with IRS regulations governing salary
overpayments.

When salary overpayments occur in the current year and reimbursement is required,
Postal Service policy6 requires reversal of the gross overpayment amount7 and
applicable taxes from the employee’s year-to-date payroll amounts. This reversal entry
excludes the overpayment and applicable taxes from the employee’s Form W-2.8 The
IRS accepts this method for amounts employees repay within the same calendar year.
The Postal Service also establishes an employee account receivable for the “net”
overpayment amount.9 Additionally, when the Postal Service establishes an account
receivable for a prior year salary overpayment, it issues a corrected Form W-2 to
reverse the social security wages and taxes even in cases where the repayment does
not occur.

In Revenue Ruling 70-177, the IRS held that “for purposes of Section 3402(a) of the
Code (federal income tax withholding) the amount of an erroneous salary payment
received by a federal employee was wages subject to income tax withholding and,
therefore, to the extent there has been no repayment of such amount by the employee
within that same year, the Form W-2 must reflect the full amount received by the
employee in that year.” Additionally, Title 26, Internal Revenue Code, Section 3402(a)
(1954) states, in part, “every employer making payment of wages shall deduct and
withhold upon such wages a tax. . . .”.

In a letter from the IRS dated August 3, 2005, the chief, Employment Tax Branch 2,
Office of the Division Counsel/Associate Chief Counsel (Tax Exempt and Government
Entities), advised the Office of Inspector General (OIG) that the code applies to
outstanding balances even when an employee makes a partial payment. Therefore,
when an employee does not make full repayment within the same calendar year, the
Postal Service must include the outstanding amount of the overpayment and applicable
taxes on the employee’s Form W-2. If the Postal Service does not include these
overpayments and applicable taxes on the Form W-2, the employee may be
underreporting income and appropriate taxes to the IRS for that calendar year. Also, for

6
  Handbook F-24, Payroll Processing Manual, Section 456.62, effective May 31, 1987.
7
  Gross overpayment amount is the total overpayment prior to any deductions.
8
  Reversal does not apply to current year gross earnings when an accounts receivable is established for a prior year
salary overpayment; however, social security taxes and wages and Medicare taxes are reversed and corrected
Forms W-2 are issued.
9
  Net overpayment amount is the total amount paid less all deductions.




                                                          3
Reporting Salary Overpayments to the                                           FT-MA-05-002
 Internal Revenue Service


prior year overpayments, the Postal Service should not issue a corrected Form W-2 to
the employee to adjust social security wages and taxes and Medicare taxes until the
employee makes a full repayment.

As of the end of Postal Service calendar year 2004, approximately $5.5 million in salary
overpayments established during that calendar year remained outstanding. Also, the
Postal Service incorrectly adjusted $2.3 million in social security wages related to prior
year salary overpayments. As a result, the Postal Service incorrectly reported
employee income and taxes to the IRS on its Form 941 for that period.

Several revenue rulings issued in prior years support the IRS’s position, including
rulings to other federal agencies.

If the Postal Service does not comply with IRS employment tax regulations, it could be
subject to fines and penalties. Compliance with IRS regulations may provide an
incentive to employees to repay their debts to the Postal Service, thereby reducing the
Postal Service’s bad debts expense.

Recommendations

We recommend the manager, Corporate Accounting:

1. Revise Postal Service policy to reduce federal tax liability and provide credit to
   employees only when they make repayment in the same calendar year, to comply
   with Internal Revenue Service employment tax regulations.

2. Revise Postal Service policy to reduce social security and Medicare tax liability and
   issue corrected Forms W-2 only when employees make repayment within the statute
   of limitations, to comply with Internal Revenue Service employment tax regulations.

3. Revise Postal Service policy to establish accounts receivable for gross amount due,
   including all taxes.

4. Inform employees of the tax implications of not repaying an overpayment by the end
   of a calendar year.

Management’s Comments

Management agreed with the recommendations, but advised compliance requires
extensive system changes and process changes. The target date for completion is
June 30, 2006, to allow for both accounts receivable and payroll system personnel to
develop requirements, complete programming, and perform acceptance testing.
Management plans to convey tax implications to employees on the employee
receivable, if feasible, or in letters of demand. Management’s comments, in their
entirety, are included in the appendix of this report.




                                            4
Reporting Salary Overpayments to the                                       FT-MA-05-002
 Internal Revenue Service



Evaluation of Management’s Comments

Management’s comments are responsive to the recommendations, and actions planned
should correct the issues identified in the finding.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Siewert, Director,
Financial Statements, or me at (703) 248-2300.

E-Signed by Office of Inspector General
  VERIFY authenticity with ApproveIt



John M. Seeba
Deputy Assistant Inspector General
 for Financial Operations

Attachment

cc: Lynn Malcolm
    Jon T. Stratton
    Kevin T. McNamara
    Jo Ann Mitchell
    Elizabeth Novillis
    Steven R. Phelps




                                          5
Reporting Salary Overpayments to the                  FT-MA-05-002
 Internal Revenue Service


                  APPENDIX A. MANAGEMENT’S COMMENTS




                                       6
Reporting Salary Overpayments to the       FT-MA-05-002
 Internal Revenue Service




                                       7
